<html>
<title> - IT TAKES A VILLAGE: COMMUNITY PREPAREDNESS</title>
<body><pre>[Senate Hearing 110-658]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-658

               IT TAKES A VILLAGE: COMMUNITY PREPAREDNESS

=======================================================================

                                HEARING

                               before the

                  AD HOC SUBCOMMITTEE ON STATE, LOCAL,
                    AND PRIVATE SECTOR PREPAREDNESS
                            AND INTEGRATION

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 5, 2008

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs








                   U.S. GOVERNMENT PRINTING OFFICE
43-091 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001




        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


 AD HOC SUBCOMMITTEE ON STATE, LOCAL, AND PRIVATE SECTOR PREPAREDNESS 
                            AND INTEGRATION

                   MARK L. PRYOR, Arkansas, Chairman
DANIEL K. AKAKA, Hawaii              JOHN E. SUNUNU, New Hampshire
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
BARACK OBAMA, Illinois               NORM COLEMAN, Minnesota
CLAIRE McCASKILL, Missouri           PETE V. DOMENICI, New Mexico
JON TESTER, Montana                  JOHN WARNER, Virginia

                     Kristin Sharp, Staff Director
                Michael McBride, Minority Staff Director
                       Kelsey Stroud, Chief Clerk













                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Pryor................................................     1
Prepared statement:
    Senator Voinovich............................................    21

                               WITNESSES
                         Thursday, June 5, 2008

Dennis Schrader, Deputy Administrator, National Preparedness 
  Directorate, Federal Emergency Management Agency, U.S. 
  Department of Homeland Security................................     3
Russell Decker, Director, Office of Homeland Security and 
  Emergency Management, and First Vice President, International 
  Association of Emergency Managers..............................     4
Suzy DeFrancis, Chief Public Affairs Officer, American Red Cross.     6

                     Alphabetical List of Witnesses

Decker, Russell:
    Testimony....................................................     4
    Prepared statement...........................................    42
DeFrancis, Suzy:
    Testimony....................................................     6
    Prepared statement...........................................    48
Schrader, Dennis:
    Testimony....................................................     3
    Prepared statement...........................................    22

                                APPENDIX

Questions and responses submitted for the Record from:
    Mr. Schrader.................................................    55
    Mr. Decker...................................................    73
    Ms. DeFrancis................................................    75

 
               IT TAKES A VILLAGE: COMMUNITY PREPAREDNESS

                              ----------                              


                         THURSDAY, JUNE 5, 2008

                                   U.S. Senate,    
               Ad Hoc Subcommittee on State, Local, and    
             Private Sector Preparedness and Integration,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:43 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Mark L. 
Pryor, Chairman of the Subcommittee, presiding.
    Present: Senator Pryor.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. I am going to go ahead and convene the 
meeting and call this Subcommittee hearing to order.
    Before I get started, I would like to welcome all of our 
witnesses and tell you how much I appreciate you being here 
today at this Subcommittee on State, Local, and Private Sector 
Preparedness. We are going to look at community and individual 
preparedness programs and we look forward to hearing from all 
of you on this topic.
    This week marks the beginning of both hurricane season and 
the Red Cross CPR Awareness Week, so it is a particularly good 
time to examine our preparedness programs. At heart, the goal 
of individual preparedness is to mitigate the impact of a 
natural disaster or terrorist incident. It involves three main 
elements: Knowledge, communication, and motivation. People need 
to know what the dangers are, they need to know how they can 
protect themselves, and they need to want to be proactive.
    Unfortunately, recent surveys have shown that the majority 
of people in our country have not taken steps to prepare for 
disasters, even in the wake of September 11, 2001, and 
Hurricane Katrina. Fewer than 30 percent of the people surveyed 
mentioned that they have a preparedness plan. Only 7 percent 
have taken all the steps recommended by DHS. Creative outreach 
strategies are crucial to improving these low numbers.
    It is obvious that government, our first responders, and 
our private sector partners need to be prepared, but individual 
citizens are also an important part of this effort. Every 
citizen who has a plan for connecting with his or her family 
and has a supply of food and water is one less citizen that is 
in need of and waiting for government assistance and resources.
    Of course, the types of events that get the most attention 
are terrorist attacks and large natural disasters like 
hurricanes, and even the Chinese earthquake that killed nearly 
10,000 people, but as any State Emergency Manager will tell 
you, the most frequent events are much smaller, things like 
tornadoes, floods, and fires. These events may not destroy huge 
regions of the country, but they are no less devastating for 
the individuals affected. These smaller events are also the 
events for which preparedness measures can have a big impact. 
People can get the most bang for their buck, so to speak.
    So I want to take just a quick moment to brag on some 
outstanding grassroots efforts. Dayna Hilton, who is a fire 
fighter from Clarksville, Arkansas, who has taken on the task 
of educating young children about the dangers of fire and 
methods for safety evacuation. She has written a children's 
book and created a mascot, Sparkles, the Fire Safety Dog, which 
is right here on the poster. Dana and Sparkles travel around 
the State visiting school children to promote fire safety. As 
the parent of two Arkansas school children myself, I want to 
thank her for her work.
    I also want to recognize the special work of the young 
people visiting Washington, DC. They are the winners of the 
Home Safety Council Kids Prepare America Contest. These 
students are actively contributing to community preparedness by 
creating plans for their families and neighborhoods. We 
appreciate the efforts of first prize winner Katharine Henson, 
who is in the audience today, and the other kids. Could you all 
please stand up if you are here?
    [Applause.]
    Senator Pryor. Thank you. Because so many of these programs 
are bubbling up at the ground level, we want to make sure that 
we are providing the appropriate Federal support to integrate 
the efforts into our broader homeland security efforts.
    Again, I appreciate everyone being here today and look 
forward to hearing from you about your community preparedness 
efforts. What I will do now is I will quickly introduce our 
witnesses and we will let them testify. I am not sure how many 
Senators we will have join us today, but if you could possibly 
keep your opening statements to 5 minutes, that would be great, 
and then I will have questions. And again, I may be joined by 
colleagues.
    First, Dennis Schrader. Mr. Schrader is responsible for the 
National Preparedness Directorate at FEMA, which builds 
prevention, protection, response, and recovery capabilities. 
Before joining FEMA, he was Director of Homeland Security for 
the State of Maryland.
    Second, Russ Decker. Mr. Decker is the Emergency Manager 
for Allen County, Ohio, the Vice President of the Association 
of Emergency Managers and the author of two books on 
preparedness.
    And third, Suzy DeFrancis. Ms. DeFrancis is in charge of 
all communications and public outreach programs at the Red 
Cross. She has also served in a variety of communications 
positions at the Department of Health and Human Services and at 
the White House.
    Mr. Schrader.

TESTIMONY OF DENNIS SCHRADER,\1\ DEPUTY ADMINISTRATOR, NATIONAL 
PREPAREDNESS DIRECTORATE, FEDERAL EMERGENCY MANAGEMENT AGENCY, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Schrader. Thank you, Mr. Chairman. My name is Dennis 
Schrader. I serve as the Deputy Administrator for DHS, FEMA's 
National Preparedness Directorate, and I am honored to appear 
before you today to discuss the Department's individual and 
community preparedness efforts.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Schrader appears in the Appendix 
on page 22.
---------------------------------------------------------------------------
    On January 29, 2002, the President announced the creation 
of Citizen Corps as a White House initiative with operational 
responsibility assigned to the Federal Emergency Management 
Agency. The Citizen Corps strategy is based on the tenets that, 
one, government has to collaborate with civic leaders; two, 
that local implementation is essential; and three, that 
national support has to include consistent policy and guidance, 
tools and resources that are adaptable for local use and 
building awareness through a national voice, such as the Ready 
Campaign.
    Citizen Corps is the Department's principal community 
preparedness strategy and is administered nationally by FEMA's 
Community Preparedness Division. Our work to support this 
priority includes four fundamental principles. First, our 
Nation's resilience must be built on a firm base from the 
bottom up. It is every individual's responsibility for 
preparing themselves, their family, and their community.
    Citizen Corps Councils and programs, second, are designed 
to be integrated with and build support for emergency 
management programs and comprehensive emergency management 
plans.
    Third, Citizen Corps Councils are sponsored by local 
government and must be supported by the local elected leader, 
emergency manager, or homeland security officials.
    And fourth, community preparedness is integrated into our 
existing programs. For example, just recently, we announced the 
2008 Competitive Training Grant Program and two of the focus 
areas are going to be on citizen preparedness and participation 
and citizen evacuation and shelter in place.
    Citizen preparedness is an important but challenging 
objective. Uniformed emergency responders make up less than one 
percent of the total U.S. population and may be overwhelmed in 
a crisis. Citizens must be better prepared and trained on how 
to take care of themselves in those first crucial hours.
    FEMA is working with the National Emergency Management 
Association and the International Association of Emergency 
Managers, many nonprofit organizations like the American Red 
Cross, and national voluntary organizations active in disaster 
and the private sector to strengthen this collaboration at the 
local level. Citizen Corps has formal relationships with 25 
national nonprofit organizations and other Federal agencies 
through our National Citizen Corps affiliates, including the 
Home Safety Council, the Meals on Wheels Association of 
America, and agencies such as the Department of Education's 
Office of Safe and Drug-Free Schools.
    The Department's efforts to promote community preparedness 
culminate each September during National Preparedness Month. In 
2007, 1,800 local, State, and national organizations, 
businesses, and governments registered as National Preparedness 
Month Coalition members and held events ranging from Youth Be 
Ready Camps, public preparedness fairs, special needs 
workshops, school preparedness events, Public Alert Systems 
tests, and small business workshops. Already in 2008, over 900 
organizations have registered to participate.
    In conclusion, Mr. Chairman, we have a long way to go, but 
we must not become complacent or waver in our efforts. Thank 
you for the opportunity to appear today and for your continued 
support for this important work. I will be happy to respond to 
any questions you or Members of the Subcommittee may have, and 
I will stop there.
    Senator Pryor. Thank you very much. Mr. Decker.

 TESTIMONY OF RUSSELL DECKER,\1\ DIRECTOR, OFFICE OF HOMELAND 
 SECURITY AND EMERGENCY MANAGEMENT, AND FIRST VICE PRESIDENT, 
        INTERNATIONAL ASSOCIATION OF EMERGENCY MANAGERS

    Mr. Decker. Chairman Pryor, thank you for allowing me this 
opportunity to provide testimony today on this critically 
important topic. I am Russ Decker, the Director of Emergency 
Management and Homeland Security for Allen County, Ohio. Allen 
County is a mid-sized rural county in northwest Ohio with a 
population of just over 100,000. I have 18 years of experience 
in emergency management, with the last 10 years as a local 
director.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Decker appears in the Appendix on 
page 42.
---------------------------------------------------------------------------
    I currently serve as President-Elect and First Vice 
President for the International Association of Emergency 
Managers (IAEM) and I am testifying on their behalf today. I am 
a member of the FEMA National Advisory Council and have also 
served as President of the Emergency Management Association of 
Ohio. IAEM has more than 4,300 members, most of whom are 
emergency management professionals at the Federal, state, and 
local government levels, tribal natins, the military, colleges 
and universities emergency managers, and since all disasters 
begin and end at the local level, I believe our perspective is 
a unique one.
    The issue of preparedness is neither novel nor new. Civil 
defense and emergency management officials have been involved 
in this role for decades. Working with our partners from the 
public and private sectors, including our key nongovernment 
partners such as the American Red Cross, we have been tasked 
with identifying the risks which threaten our communities, 
reduce or eliminate those risks when possible, and help to 
prepare our citizens for dealing with those threats that we 
cannot control.
    However, the preparedness of communities is based on the 
preparedness of individuals. This is perhaps the weakest link 
in our efforts. We believe that in most cases, the majority of 
people can take care of themselves and their families for the 
first 72 hours, or 3 days, after a disaster strikes if they 
plan. That planning is what allows local emergency managers to 
focus our efforts on those who are not able to provide for 
themselves.
    Because local emergency managers have the statutory 
responsibility for coordination of all phases of comprehensive 
emergency management, it is vitally important that community 
and individual preparedness efforts be integrated and 
coordinated through the local emergency management agency. 
Failure to do so may lead to well-intentioned but off-target 
and misdirected efforts based on incorrect or incomplete 
information. This same line of reasoning applies to the State 
and Federal Governments, as well, and that is why IAEM insists 
that all Federal community preparedness efforts, in fact, all 
preparedness efforts, need to be integrated and coordinated 
through FEMA. This is consistent with the Post-Katrina 
Emergency Management Reform Act.
    The Community Emergency Response Team (CERT) concept for 
providing basic emergency training to citizens originated in 
1985 in Los Angeles. Since the program was made available 
nationally by FEMA in 1993, communities in 28 States and Puerto 
Rico have conducted CERT training. In my home State of Ohio, 
more than 8,000 citizens have taken the basic CERT training.
    In addition, as you can see from my prepared remarks, we 
have a long-established history in my county of partnering with 
local business and industry to provide a successful grassroots 
community preparedness program. A number of Federal 
preparedness programs exist, including Citizens Corps Councils. 
And while these new programs show promise for improved 
preparedness, we also find several issues that cause us 
concern.
    I believe it is important to realize that these new 
programs do not seem to be attracting large numbers of new 
volunteers. Instead, our experience is that many of the folks 
participating in these programs are the same dedicated corps of 
volunteers that we have already been counting on to step up 
when disaster strikes. We may be creating a false sense of 
increased volunteer assets that don't actually exist.
    It is also vital that at all levels of government, we 
provide information to our citizens allowing them to gain a 
realistic understanding of the response they should expect in 
times of disaster from government at all levels. In the absence 
of realistic information, unreasonable expectations are formed 
and post-disaster frustrations rise.
    One area where FEMA could assist local and State officials 
would be by returning to the policy of providing adequate 
quantities of educational materials. Local emergency managers 
have the audience and the opportunity to reach our citizens, 
but oftentimes lack the resources for needed materials. In 
addition, we would urge FEMA to develop radio and TV Public 
Service Announcements that could be used for government at all 
levels to promote community preparedness. In other words, we 
are urging FEMA to help provide some tools for our toolbox.
    Thank you for the opportunity to discuss this topic with 
you today. I welcome any questions.
    Senator Pryor. Thank you. Ms. DeFrancis.

 TESTIMONY OF SUZY DeFRANCIS,\1\ CHIEF PUBLIC AFFAIRS OFFICER, 
                       AMERICAN RED CROSS

    Ms. DeFrancis. Good morning, Mr. Chairman. The American Red 
Cross is very pleased to be here today and we salute you for 
bringing to the fore this important topic of community 
preparedness. We also are in wholehearted agreement with your 
points on preparedness--knowledge, communications, and 
motivation.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. DeFrancis appears in the Appendix 
on page 48.
---------------------------------------------------------------------------
    The mission of the American Red Cross is to help people 
prevent, prepare for, and respond to disasters and other 
emergencies. We shelter, feed, and counsel people affected by 
disasters at home and abroad. We collect and distribute nearly 
half of the Nation's blood. We teach life-saving skills, and we 
support our military and their families through emergency 
communications. So whether it is a hurricane or a heart attack, 
a call for blood or a call for help, the Red Cross is there 
around the corner, around the country, and around the world.
    We have more than 700 chapters nationwide and we respond to 
an average of 74,000 disasters each year. Now, as you 
mentioned, these are typically floods, tornadoes, and fires. 
This spring saw a recordbreaking number of tornadoes, including 
in your own State. We are currently responding to 18 large 
disaster relief operations.
    But what most people don't know about us is that every 
night in America, Red Cross volunteers show up on the lawn of 
someone who may have lost their home to a house fire. We give 
them a cup of coffee, a blanket around their shoulders, and a 
place to stay for the night, and we participate in fire safety 
awareness, such as your poster indicates.
    But because we deal with so many disasters, the Red Cross 
knows the importance of being prepared before a disaster 
strikes. Preparedness can help an individual respond 
effectively until help arrives and it can save lives. Despite 
the importance of preparedness for ourselves and our families, 
the vast majority of Americans are not prepared, and as you 
mentioned, our polling shows only 7 percent of Americans have 
taken all the steps necessary to prepare. Yet the majority of 
Americans say they would get prepared if it were easier and 
more convenient to do.
    So at the Red Cross, we are making preparedness as easy as 
one, two, three. Get a kit, make a plan, and be informed. We 
call it Red Cross Ready, and we aligned our steps with the 
Department of Homeland Security's Ready Campaign because we 
think it is critically important that there be simple, easy-to-
follow instructions and that they be consistent with what all 
the other authorities are saying. So a national preparedness 
message that emergency managers throughout the country can use 
and localize helps us cut through the clutter and avoids 
confusion. We ask you and your colleagues as we go into a new 
Administration to encourage continuity of this three-step plan 
across the Department of Homeland Security.
    Just as important as having a simple, easy message to 
follow, it is also important to have multiple messengers. If 
people hear the same message from different sources they trust, 
they are more likely to believe it and act on it. So we partner 
at the Red Cross with businesses, schools, community 
organizations and government to reach people where they live, 
work, and play.
    Here are a few examples. We know many people will listen to 
information that comes from their employer, so our Red Cross 
chapter in Chicago is working with W.W. Grainger to create a 
corporate volunteer program called Ready When the Time Comes. 
This program trains volunteers from businesses and 
organizations. We have trained more than 4,000 volunteers from 
over 100 corporate partners. Recently, some of those volunteers 
worked to assist people during the tornadoes in Kansas.
    Our research has also found that young people, such as 
Katherine, are very effective messengers when it comes to 
telling their parents to get prepared and we need to engage the 
next generation. So the Red Cross developed a program called 
Masters of Disaster and we teach it in schools. We train about 
a million kids a year. And because we know that poorer 
communities are often at higher risk of disasters, our chapter 
in Columbus, Ohio, works with the local Public Health 
Department to teach Masters of Disaster in after-school and 
summer programs in impoverished neighborhoods.
    But perhaps one of the best examples of effective 
partnerships on the local level is in your home State, Mr. 
Chairman, of Arkansas. It is the Arkansas Seniors are Prepared 
Program (ASAP). This is a cooperative effort among the Red 
Cross, FEMA, and State Government to help senior citizens get 
better prepared. We have provided 2,200 seniors with this life-
saving information in Arkansas.
    So we need one simple, easy-to-follow message. We need 
multiple trusted messengers. But there is one more thing we can 
do. We can lead by example. We can all make sure we are 
prepared in our own homes and businesses. Many of us, as you 
said, got prepared for the first time following September 11, 
2001. It is time now to restock those supplies and replace 
those batteries that probably ended up in a kid's toy over the 
holidays. Summer is a great time to get prepared and get kids 
involved. They have some time on their hands and they know how 
to use the Internet. So I encourage families to go to 
redcross.org and click on, ``Preparing for a Disaster.'' There 
is also a Mother's Guide to Preparedness. And by the way, 
research shows that the most trusted and effective messenger on 
preparedness, even among older people, are their mothers. 
Redcross.org will give you a whole list of items you need for a 
kit, or you can buy assembled kits from our Red Cross store. 
And, it is relatively inexpensive to get a kit and it doesn't 
cost anything to make a plan and be informed.
    Mr. Chairman, we thank you and the Members of the 
Subcommittee for making preparedness a priority. As leaders in 
your communities, you can help us build a culture of 
preparedness, and in doing so, save lives. Thank you.
    Senator Pryor. Thank you. Again, I want to thank all the 
panelists for your testimony. Now I have a few questions.
    I may just start with you, Ms. DeFrancis, if I can, and 
that is I know that in many States, the States do not provide 
any sort of protection like legal liability protection for 
volunteers, and I assume that is true for volunteering 
organizations, as well. Is there a difference in what you have 
seen, is there a difference in participation State by State 
depending on whether these States have what a lot of people 
call ``good samaritan'' laws?
    Ms. DeFrancis. Mr. Chairman, I am not aware of any studies 
that specifically show a difference. However, we are strong 
supporters of that legislation. We believe it is critically 
important to protect our volunteers when they come forward. 
They are often the people who are going to a disaster scene 
when others are leaving and we want to make sure that they have 
that protection.
    Senator Pryor. I know that back years ago when I was in the 
Arkansas State Legislature, we passed some laws through the 
legislature that basically protected doctors when they were 
providing, again, good samaritan-type efforts. We just felt it 
was unfair that they might get sued if they were out there just 
on their own helping somebody. So anyway, I do think that is 
good public policy and I think that--I just didn't know if you 
were seeing any difference out in the field. So as far as you 
know, you are not, but you just----
    Ms. DeFrancis. As far as I know, but I will definitely 
check and if we can find any research on that, get it to the 
Committee.
    Senator Pryor. That would be great.
    Ms. DeFrancis. Thank you.
    Senator Pryor. That would be helpful if there is anything 
out there. Mr. Schrader, let me just ask you----
    Mr. Schrader. Yes, sir.
    Senator Pryor. One of the concerns that we find with DHS 
that has been pretty consistent, unfortunately, since I have 
been here in the Senate for the last 5 years is DHS does not 
always do a great job of coordinating, not just coordinating 
with other agencies, but sometimes even know what is going on 
within the Department. I know DHS and FEMA, part of what you do 
is you coordinate with other Federal agencies on this 
particular thing, on community preparedness and individual 
preparedness. Do you think that FEMA and DHS are doing what 
they need to do to coordinate with other Federal agencies?
    Mr. Schrader. Well, Mr. Chairman, I will start by saying, 
as I said in my opening statement, we are not where we need to 
be. We have a long way to go. But the good news is that the 
Post-Katrina Act envisioned the establishment of the National 
Integration Center and put this program inside the National 
Preparedness Directorate. What we have been doing over the last 
9 months has been spending a lot of time working to get the 
organization to do exactly what you are talking about, reaching 
out, working across boundaries. Brock Bierman, who is the 
Director of the program, as well as Karen Marsh, have 
relationships that cut across the Department and the agency.
    Within DHS, our experience has been very positive. Of 
course, we have the Ready Campaign, which is a public affairs 
message nationally that has done a very nice job. So our whole 
agenda is to do exactly what you are talking about. But I am 
not going to sit here and tell you that we are anywhere near 
where I would like it to be.
    Senator Pryor. And do you have in your mind the steps 
necessary to get it to where you want it to be?
    Mr. Schrader. What we are doing--this gets back to the 
whole big picture around transition philosophy--we are putting 
quality-capable career people in key jobs. We are delegating to 
them and we are allowing them to do the work we are supposed to 
be doing, and we are having a lot of success with that. I know 
the Deputy Secretary has held a number of sessions in the last 
several months to do just that, is to get people within intra-
DHS talking to each other. So it is a very directed initiative, 
and I think that is going to pay dividends.
    As you know, Nancy Ward is the Senior Transition Official. 
She is our Region IX Administrator. We just had a conference 
here in Washington, DC, 2 weeks ago where Mr. Paulison brought 
together all the regions around the country to make sure that 
this whole transition message was--so the things we are doing 
are going to carry on in the future.
    Senator Pryor. A lot of that sounds good about you getting 
people together and talking and communicating. That is 
obviously a very important step. But you also mentioned a few 
moments ago that you have been working on some of this for the 
last 9 months. As you are working on this and as you are 
talking, are you actually making changes?
    Mr. Schrader. Yes.
    Senator Pryor. I mean, are you changing structure?
    Mr. Schrader. Yes, absolutely. The change is consistent, 
deliberate, and I will give you an example. We are bringing in 
a new system administrator who starts on Monday and his name is 
John Bridges. He is actually from the U.S. Postal Service. So 
we are reaching across other agencies to bring in talent that 
FEMA might not have otherwise had, and you can't get much more 
local than your local post office.
    Senator Pryor. Right.
    Mr. Schrader. So we are really thinking that way. We are 
bringing a lot of people into the organization. If you look at 
some of the things that need to be done, for example, we need 
to be focused on making sure that the emergency operations 
plans in all of our jurisdictions have the concept of NGO 
participation and private sector participation in them. By 
virtue--the other thing that we did, which is very important, 
is we have created the--and this is not just talk, this is 
action--in every region as of January, we now have realigned 
the reasons to have a Federal Preparedness Coordinator. We have 
hired those people, we have staffed them, and they are 
responsible for overseeing their States and getting involved at 
the State level.
    So there is a lot of work going on in a very rapid fashion 
and I am very optimistic. And we have to push this program into 
the regions to get closer to the State and local folks where 
the action really is.
    Senator Pryor. Well, let me follow up on that and ask a 
specific question about preparedness and communication. Do you 
know if the Citizen Response Teams are incorporated into the 
State or national exercises out in the field, like the TOPOFF 
exercise? Do you get the Citizen Response Teams involved in 
those?
    Mr. Schrader. In some cases, they are. We held, for 
example, for TOPOFF 4, we had a very specific part of the 
exercise, because the way TOPOFF--and those are now going to be 
called national exercises in the National Exercise Program, but 
the way those work, we actually had one of the sessions during 
the design process focused on the citizen participation. So 
that is part of the process. And I would say getting this 
embedded into the design and evaluation of exercises is 
critical. One of the evaluation factors in our exercise program 
now is citizen participation.
    Senator Pryor. Good. Well, you said sometimes that they are 
incorporated. To me, it seems like they should always be 
incorporated.
    Mr. Schrader. Did I say some?
    Senator Pryor. Yes.
    Mr. Schrader. I am sorry. If I say always, then I am sure 
there will be times when it doesn't happen, so--it is the 
intent that it would always happen----
    Senator Pryor. It seems to me to make sense to always 
include it----
    Mr. Schrader. Yes, sir.
    Senator Pryor [continuing]. Because they would be an 
important piece of that.
    Mr. Schrader. Mr. Chairman, you are absolutely correct.
    Senator Pryor. Let me ask you as well, Mr. Schrader, about 
how again, Department of Homeland Security (DHS) is organized 
and how you have so many different offices and chain of 
commands and what not within Homeland Security.
    Mr. Schrader. Right.
    Senator Pryor. You have two main programs here, I think, 
when we are talking about community preparedness, Citizen Corps 
and Ready.gov, but I don't think they are within the same 
office at DHS, isn't that right? They are in separate offices?
    Mr. Schrader. Yes, sir, or Mr. Chairman.
    Senator Pryor. And then beyond those two, you have the 
Private Sector Office, you have the Disabilities Office, State 
and Local Outreach Office, Nonprofit Outreach Office, etc. What 
are the advantages of being organized that way rather than 
trying to bring everybody together and do it in a more unified 
fashion?
    Mr. Schrader. Quite frankly, it could work this way, and we 
have very good relationships. Al Martinez-Fonts and I speak 
frequently. Bob Stephan, who runs the Critical Infrastructure 
Program and his people, Jim Caverly, we work very closely 
together. If you look at how we organized, for example, Title 
IX, we have a Private Sector Council now that oversees the 
implementation of Title IX. The administrator chairs that. I am 
his designee. But we are working very closely together on that 
project.
    What it really requires and what has happened since the 
Post-Katrina Act and the establishment of my office is we have 
to demand that people collaborate in process, and that is what 
is happening. We are going to--Assistant Secretary Fonts has a 
lot of information. His people, like Mr. Morris, participate 
with us.
    So my sense is that--and I will give you another example. 
We do a lot of research, DHS and S&T are involved with us. I 
think it is incumbent on us and our people to reach out and 
work together, and we are seeing a lot more of that and I am 
very encouraged by what I see.
    Senator Pryor. Good. Let me ask another thing about Citizen 
Corps. Citizen Corps does things like forming councils, 
partnership development and coordination, training and 
exercises, communication, outreach, and national policy 
integration. Can you tell me what you mean by national policy 
integration?
    Mr. Schrader. What I mean by that is--and again, this gets 
back to the creation of the National Preparedness Directorate 
and pulling all these folks together--we want to make sure that 
if there is a--and this gets back to your point, for example, 
on exercises. We have an HC program which oversees exercises. 
We need to make sure that as we develop policy around 
exercises, that citizen participation is built into that as we 
do the National Preparedness Guidelines. There is information 
in there that requires, for example, in the eight national 
priorities that came out of the guidelines, citizen 
preparedness is one of the eight priorities.
    And then that ties back to how we fund programs. As I 
mentioned earlier, you tie that back to the Competitive 
Training Grant Program, we made, based on input that we got 
from the field, we made two of the five priorities this year 
citizen participation. So we have to weave these together as a 
matter of policy and that is what we are doing.
    It is not where I would like it to be, quite frankly, but 
every day, I come to work with that focus in mind and we have 
to keep hammering on it and our folks are getting it. They 
understand that is where we are heading. One of the reasons why 
this transition strategy is so important is that we have to 
have the career workforce driving this. It can't be at the 
political level. It has to be at the career level, and it is 
starting to work.
    Senator Pryor. Good. Let me ask you, Mr. Decker, if I may, 
here you are sitting next to Homeland Security and FEMA. From 
your perspective, are Homeland Security and FEMA doing enough 
to coordinate with State and local but also just with community 
organizations?
    Mr. Decker. Mr. Chairman, I welcome that question. Let me 
say that I think DHS and particularly FEMA within DHS has made 
major strides to get better at communicating with us and our 
local counterparts----
    Senator Pryor. Since when?
    Mr. Decker. Over the last 18 to 24 months.
    Senator Pryor. OK.
    Mr. Decker. I would say it is part of Administrator 
Paulison's vision of the new FEMA, the leaning forward. We are 
seeing more communication and more effort coming out to the 
regions and the regions are a little more convenient for us to 
deal with at the local level than trying to contact folks at 
headquarters and get answers. And I would also say through our 
associations, through NEMA and IAEM, that certainly we are 
partnering more. They are listening to us more.
    And I would point to, as an example, the National Response 
Framework. I think we all remember the first version came out, 
not too happy of a version. They were willing to listen to the 
locals and to the State directors and I think the final product 
we have out is one that is actually being used at the local 
level now and not just stuck on the shelf somewhere as one more 
thing that Washington sent us.
    So I do think we are making progress and I do think it is 
at the FEMA level. We still feel, I will tell you, we still 
feel disconnected from DHS as a whole. To us, that is a big 
thing that we can't get our arms around. But we do feel that we 
are making inroads with the FEMA folks.
    Senator Pryor. Well, let me follow up on that, if I may. It 
sounds good in terms of FEMA, and I do think that Dave Paulison 
is really trying hard at FEMA and I think he has the right 
approach. I know he still has some legacy issues he is trying 
to clean up from previous directors. But nevertheless, I do 
think he is trying very hard to do that and he has been very 
responsive. I think he has FEMA focused again like it should 
be. Personally, I think FEMA should be at a cabinet-level 
position and I think that model worked well under the previous 
Administration. I think it would work well right now.
    But regardless of that, you mentioned that the coordination 
with FEMA and the communication with FEMA is good, but not so 
much with DHS. How does that hurt what you are trying to do 
when you really can't communicate or you don't have that type 
of relationship with DHS? How does that hurt you in what you 
do?
    Mr. Decker. I think where it really hurts us, and I would 
mention, Mr. Chairman, that IAEM wholeheartedly agrees with 
your assessment that we think FEMA should be a cabinet-level 
agency and restored to their previous status, but having said 
that, the biggest problem with the disconnect at DHS, I 
believe, is that it adds to confusion in the public. They will 
hear something from DHS, and is that DHS and FEMA or is that 
just DHS, and I think if the public is confused, certainly my 
counterparts across the country are confused, and I think that 
is why the Post-Katrina Emergency Management Reform Act was so 
critical because it forced DHS to put a lot of the programs 
that we deal with--in fact, all of the programs we deal with 
are now under FEMA. So we are back to dealing with the 
organization that we are comfortable with, and that is FEMA, on 
our grants and other programs.
    Senator Pryor. OK. Ms. DeFrancis, same question for you in 
terms of your perspective on whether FEMA is doing a good job 
of helping you coordinate, being integrated in the communities 
and the areas where you are going to need response, and also 
for that matter how that works on DHS's level, as well.
    Ms. DeFrancis. Well, Mr. Chairman, we have very good 
coordination with FEMA as well as the Department of Homeland 
Security. The head of the Red Cross has traveled with them to 
many disasters. We have been linked up all the way down the 
chain. We recently held a meeting at the Red Cross just a few 
weeks ago, convening the Department of Homeland Security, FEMA, 
other agencies, and nongovernmental organizations to discuss 
Preparedness Month and how we can get ready for that and send 
messages and help communities prepare.
    So I would say that we are very confident with our 
relationships with both FEMA and the Department. I am not aware 
of instances where it has been a disconnect between FEMA and 
the Department, but I would say we work very closely with them 
and consider them to be our partners, and of course under the 
National Response Framework, we have responsibilities, as well, 
with them in terms of convening other nongovernmental 
organizations for mass care.
    Senator Pryor. Right. Let me follow up on that, if I may, 
just a little different piece of that same question, and that 
is there is a study out that says that some of these programs 
and some of these efforts that FEMA and DHS are doing are 
attracting volunteers, your standard volunteers like fire 
fighters, National Guard, Red Cross, those types of standard 
volunteers in communities they volunteer, but they are not 
attracting new volunteers. Do you think we need to be actively 
trying to recruit more volunteers into preparedness and into 
response?
    Ms. DeFrancis. Well, absolutely, Mr. Chairman.
    Senator Pryor. And then how do we do that?
    Ms. DeFrancis. Well, certainly as you know, the Red Cross 
depends on volunteers. They make up the bulk of our response 
effort, and so we are always actively trying to recruit more 
volunteers.
    I think part of the answer to how you do that is you need 
to educate communities about what we do, what the Red Cross 
does in our instance, and help train people to do that. I 
mentioned in my testimony that getting businesses who very 
often come to us and say, we want to have our employees 
trained, whether it be in preparedness or CPR or anything, and 
working with them through programs like ``Ready When the Time 
Comes.'' As I said, this is a program that was started in one 
city. We have now piloted it in 16 other cities. I think it is 
going to go nationwide, and basically it is getting businesses 
to lend us their employees for one Saturday to train and to be 
a disaster volunteer so they could go in a shelter and help 
with that. I have attended these. They are wonderful. You will 
see teams of employees who work together during the week at 
work and they are training to be volunteers. And as I said, we 
have already deployed them other places.
    So obviously, I guess, the other is we really want to 
connect with more young people, encourage them. We are very 
active on the new media and websites to interest the next 
generation of volunteers in the Red Cross. I think, as you 
know, there is a tremendous desire to serve among the American 
people. When we connect that with the work that we do, we will 
get more volunteers.
    Senator Pryor. Mr. Decker, are you seeing that same thing 
in your experience? The research is saying that there are 
volunteers out there, but not a lot of new volunteers.
    Mr. Decker. That is exactly what we are seeing. We are 
seeing that our Red Cross volunteers, for instance, that are 
working on those DAT teams that show up at those house fires 
are the same guys who are volunteering to be HAM radio 
operators and help us storm spot during severe weather, and 
they are the same guys who is helping out in local service 
clubs and his church. So we have a lot of people who are out 
there, are great volunteers and are offering their help almost 
carte blanche and we are not seeing great numbers to replace 
them or to augment them in the future. Our concern is that when 
disaster strikes, we are forcing these volunteers to pick one.
    Senator Pryor. Yes.
    Mr. Decker. When this disaster strikes, are they going to 
come out and be part of the CERT team? Are they going to be 
part of the DAT team with the Red Cross? Are they going to go 
over and help their church take care of the elderly that they 
are helping?
    Senator Pryor. Right.
    Mr. Decker. So that is the concern that we see, and I think 
you are right on target.
    Senator Pryor. And the other problem is, for example, in 
Arkansas, in about a 60-day period, we had two pretty severe 
rounds of tornadoes and major flooding. A lot of times, those 
same volunteers were going from event to event to event. There 
is some wear and tear there. So do you have any ideas on how to 
expand the recruiting base for volunteers?
    Mr. Decker. No. There is no golden answer to that. I wish 
there was. I think it is a matter of--it is going to take a lot 
of effort. I think we have to attract this younger, this 30-ish 
to 40-ish area is where I see the big struggle being, is to get 
folks in that age range to want to volunteer. We have younger 
folks who want to volunteer and we have older folks that have 
been volunteering for generations. And I think part of it is 
that is the age group where they are raising families and they 
are probably both working and it is just when they get 10 hours 
of spare time, they want to keep it for themselves and not 
donate it and we are just going to have to work on trying to 
educate them and showing them that just makes good sense, to 
help your neighbors.
    Senator Pryor. Mr. Schrader, did you want to add something 
to the volunteer question?
    Mr. Schrader. Yes, Mr. Chairman. What I would suggest is we 
do regular research in the directorate and one of the things we 
want to do is to begin to get more focused on these issues and 
convert the research to action recommendations because one of 
the things that we don't want to do, particularly within 
Citizen Corps, we don't want to replicate or duplicate effort, 
and it may be that as we drill into this through our research 
efforts, we may find that people are affiliated with all sorts 
of groups.
    For example, I used to coach my daughter's teams when she 
was growing up. It may be that we have to get some of this 
first aid and CPR training, the basic training, into some of 
those organizations as part of that milieu rather than trying 
to get them to do something else, but to still get it. And so 
we may have to think about ways. But I think part of where we 
can add value is to direct some of our research to answering 
some of these questions and that is what I would like to be 
able to do.
    Senator Pryor. Well, you have got two good resources here.
    Mr. Schrader. Absolutely. I am taking copious notes.
    Senator Pryor. Good. Maybe you can talk to them about that 
because that sounds reasonable to me.
    Mr. Schrader. Yes, sir.
    Senator Pryor. Mr. Schrader, let me also ask about--let me 
the preface the question by saying, in my State, if I can speak 
for the people of Arkansas, I think most people feel 
comfortable in preparing and sort of thinking about preparing 
for tornadoes and floods and ice storms, things like that. They 
don't feel as comfortable when it comes to terrorist attacks or 
pandemic flu or something of that nature. Do you try to 
encourage people to prepare for every type of potential 
disaster or do you try to focus your message--like, for 
example, we live in a part of the country that has a lot of 
tornadoes and we are prone to ice storms in the wintertime. Do 
you try to tailor the message, or is it just more of a one-
size-fits-all for everything?
    Mr. Schrader. Well, Mr. Chairman, you have asked a question 
that is probably the center of a lot of controversy in the 
country because that is where this debate lies around all 
hazards. Let me start by saying that part of what we are doing 
inside of FEMA to more directly integrate with the Department 
is to make sure that FEMA is an all hazards agency. We benefit 
by all the programs inside of DHS like the INA program, like 
the IP program. What we are doing and our responsibility inside 
FEMA is to reach out and connect so that we begin to organize 
our efforts in an all hazards way. So that is one issue.
    The second thing we are doing, we have been given resources 
to do regional catastrophic planning. Dave Maxwell, for 
example, is doing a terrific job as the Chairman of NEMA's 
Preparedness Committee nationally. But there is a CUSEC group 
in the middle of the country that looks at earthquakes. The 
worst earthquake in that eight-state region is pretty 
significant----
    Senator Pryor. Right, with the New Madrid fault.
    Mr. Schrader. The New Madrid fault, right. We are currently 
working on a plan, bottoms-up plan, that will culminate in an 
exercise in 2011.
    Senator Pryor. Right. That would be a tabletop?
    Mr. Schrader. Well, that would be a national level 
exercise----
    Senator Pryor. Right.
    Mr. Schrader [continuing]. Because it would include all 
eight States, yes, sir.
    Senator Pryor. I think that is great. I think that is 
important. Speaking of that, because, again, in our region of 
the country, we live on or near a very dangerous fault line, 
but we haven't had a major earthquake there in 200 years, 
almost----
    Mr. Schrader. Exactly.
    Senator Pryor [continuing]. A major one. We have had little 
tremors here and there. So I think a lot of people, even though 
that threat is out there, it is not that real to them, so I 
think an exercise like that would help inform the public.
    Mr. Schrader. Right, and that to me is an example of how it 
all streams together. The whole concept of the planning 
scenarios came from working internally with DHS on the planning 
guidance. The whole notion of having these regional 
catastrophic--well, not only, but an all hazards for disaster 
situations, earthquakes are low-probability events, but they 
are very--they have high impact.
    So the point I was making is that whether it is an 
earthquake or a major HAZMAT or a chemical-biological event, 
those are kinds of things that most people are not thinking 
about. But the fact of the matter is that if we prepare the 
public at that scale--it is really a matter of scale that we 
are talking about here rather than the initiating of that, and 
then that part of the country will focus on earthquakes. 
Obviously, in the Southeast it will always be hurricanes. But 
if we can get those base capabilities in place around 
communications, citizen preparedness, how people work together, 
around logistics, we will be able to deal with most situations.
    Senator Pryor. Let me ask you, and it is really for both of 
you here, yesterday here at the Capitol, we had severe weather 
warnings and tornado warnings, etc. What most people did is 
they went to their television set and turned on either the 
Weather Channel or CNN or Fox News, whatever it may be, some 
sort of local broadcast, or turn on the radio and try to figure 
out what is going on, what is about to happen. On the national 
level and then again on the State and local level, do you all 
systematically try to work with the news media in terms of 
making sure that you are coordinated with them, or is the news 
media, do they have enough incentives just to do that on their 
own and they are going to do what they do because they cover 
local weather and local events?
    Mr. Schrader. Well, let me start by saying, obviously, the 
news media has a very positive effect on driving preparedness 
because they are right on top of these things 24/7. So that is 
a positive thing.
    Last night, for example, the Office of National Capital 
Region was monitoring this thing, Chris Geldart, who is the 
Director, and then there was a conference call with the 
Administrator and the National Operations Center and the NRCC 
folks talking about where we are. Prior to that, the Director 
of the National Capital Region talked to the Virginia Homeland 
Security Advisor and also the Maryland Homeland Security 
Advisor and Washinton, DC, and said, where are things? Is 
everything OK? They said, we have got it under control, there 
are some outages, and that information was all discussed last 
night at 9 p.m. So we are on top of it, in a way, we have to 
stay two steps ahead of the media, which is not easy to do, as 
you can imagine.
    Senator Pryor. Right. But are they out there on their own, 
or do you actually--I know you are informing them and giving 
them----
    Mr. Schrader. Right.
    Senator Pryor [continuing]. Messages for them to broadcast, 
but are they working pretty much independently of you or are 
you trying to coordinate with them?
    Mr. Schrader. A lot of their information comes from 
government agencies like the National Weather Service and NOAA. 
We have partnerships with those folks, the Hurricane Center. So 
my view is that those linkages are in place and work. 
Obviously, things can always be better.
    Senator Pryor. Did you have something to add to that?
    Mr. Decker. Yes, Mr. Chairman. I would say that the 
question that you raise is really what local emergency 
management is all about and that is what I and my colleagues 
across the country, that is what we are paid to do, is develop 
those relationships with our local media so that we have ways 
to communicate in those crisis times. And I can say that for a 
large part, that is very successful. In most areas, the local 
emergency manager and the news media have an excellent working 
relationship.
    We have multiple--and redundancy is a good thing in our 
profession. So we have multiple ways that we can get hold of 
reporters and news media during hours, after hours, and 
likewise, we make it a two-way street, so that if they need to 
access me during a disaster, they have some offline ways to be 
able to do that because the lack of information is certainly 
worse than, I believe, than being able to have too much 
information.
    So I think what you probably saw here, or what I saw last 
night when I was here and what you would see in any community 
across the country is the fact that I am sure the local 
emergency managers and the media were working together, and had 
shelters needed to be opened and things, those would have been 
communicated quickly through the media so folks know what to 
do.
    Senator Pryor. Let me ask you, Mr. Decker, this is a little 
bit of a follow-up to what you are saying but it is a different 
subject. I just want to see if you have had this experience. In 
another committee setting--I am on the Senate Commerce 
Committee--we were talking about ownership of local media 
outlets and whether you should continue to allow this 
consolidation where radio stations, for example, are parts of 
larger and larger chains or if you want to discourage that and 
require more local ownership.
    Well, anyway, one of the stories that was told in the other 
committee was that there are examples of areas who have had 
their local radio stations bought up by chains and what that 
means in effect is that a local radio station loses its news 
department. And so even though they are broadcasting, they may 
be playing rock and roll or country music or whatever the case 
may be, they are not getting any local coverage in that area. 
So when there is a threat of a natural disaster, whatever it 
may be, the traditional, normal local media outlet is not of 
any help because they are just broadcasting whatever is being 
syndicated or whatever they are picking up on satellite. Have 
you had that happen to you, or----
    Mr. Decker. Well, we haven't had it negatively impact us, 
but I will tell you that is the real world out there. In my 
county, we have 12 radio stations under two owners----
    Senator Pryor. Right.
    Mr. Decker [continuing]. And they are both large 
corporations. We have the four major television networks under 
two owners. And so there are really four media shops in town to 
do all the radio and television. But what we have found, those 
stations, you are right. Many of those stations are automated 
now, so if something happens at 3 a.m. on Sunday, there is 
nobody at that radio station. We can still----
    Senator Pryor. There is nobody you can coordinate with?
    Mr. Decker. We can still use the EAS to interrupt on our 
own on the short-term, to get that immediate message out----
    Senator Pryor. Right.
    Mr. Decker [continuing]. And then what we have been doing 
in our jurisdiction, and I am sure my colleagues around the 
country, because you don't have the newsroom. So we are 
partnering with the general managers and the chief engineers to 
find out how we get a body into their radio station at 4 a.m. 
in the morning that can put on some special programming. Most 
of those companies, we have found to be receptive to do that. 
It is just a new model. It is not the old days where you had to 
know the news director. Now you need to know the chief engineer 
and the general manager and the sales manager because those are 
the guys who can get in and get something different on the air 
than what is coming off a satellite someplace.
    Senator Pryor. Right. Well, a similar circumstance is with 
satellite television. There is a must-carry rule there where if 
you are in a certain media market, then that satellite provider 
must carry your local TV broadcast. But what happens is around 
the country, I know in Arkansas, for example, if you go up to 
the northern tier of counties that touch Missouri, they are not 
in an Arkansas media market. They are in Missouri media markets 
and so they are getting their news and weather and all that out 
of Joplin or out of Springfield or out of somewhere like that, 
and I am sure those are great people that run those stations, 
but they are more focused on Missouri issues. So if you are in 
rural Arkansas up in some of those counties, and there are 
other regions of the State like that around the borders, pretty 
much, where they are picking up other States' media markets, 
they get zero Arkansas weather coverage or zero catastrophe 
coverage like that in Arkansas because Arkansas is really just 
an afterthought because they only have a couple of counties or 
something.
    That is a concern, too, and I don't know if you have a fix 
for that. I mean, we are looking at something here that maybe 
would fix that and allow the customer to decide which one they 
pick up, but we can work on that. But I didn't know if you had 
that experience, either.
    Mr. Decker. We haven't had that exact experience in my 
county but we had something similar. We had a lot of guys out 
selling satellite service before they had to carry the locals 
and we encouraged them, and they voluntarily agreed to go along 
with this idea, and that is we were stressing the fact, and 
maybe we embarrassed them into it because we would speak 
publicly about the fact that you are not going to get these 
local warnings if you are on satellite television. And so we 
got the satellite providers to voluntarily provide NOAA all-
hazard weather radios to their subscribers when they bought the 
satellite dish because at least we knew then that they had that 
all-hazards radio in their household, and if they aren't going 
to get it off the TV, that the radio would come on and should 
alert them at that point.
    Senator Pryor. Let me ask this, too, and this may be more 
for FEMA than the local and other volunteer organizations. Of 
course, today, a lot of people communicate through their 
wireless telephone, their cell phone. Is there a system in 
place where people can get emergency broadcasts through their 
telephone? Is that option available, and is it available in all 
media markets, do you know?
    Mr. Schrader. I know that in the National Capital Region, 
we were working--there are providers who provide alert 
notifications----
    Senator Pryor. Right.
    Mr. Schrader [continuing]. Through those kinds--but those 
are usually services----
    Senator Pryor. You have to pay extra for that?
    Mr. Schrader. Yes, exactly. But I know we had a program 
where you could sign up free with the local AMA, like in 
Montgomery County, but it is not universal around the country. 
But the capability exists. It is not an organized effort.
    Senator Pryor. Do you know anything about that?
    Mr. Decker. No, other than I do know that FEMA is working 
on the IPAWS project, which would sort of go to some of those 
concerns down the road, but I don't know how far along they are 
on the IPAWS, but----
    Mr. Schrader. Yes, and I didn't come prepared to address 
IPAWS.
    Senator Pryor. Yes. I mean, the only point there really is 
that a lot of times, we think in terms of traditional 
communication----
    Mr. Schrader. Right.
    Senator Pryor [continuing]. And certainly cell phones and 
the Internet, for that matter, and all this other stuff that 
has come online, that is all sort of non-traditional but can be 
a very effective, very immediate and cheap way to get the word 
out to people.
    Mr. Schrader. Yes.
    Senator Pryor. So anyway, I have other questions and I 
think what I will do in the interest of time is to maybe submit 
some of those for the record. What we are going to do here is 
we will keep the record open for 2 weeks. Some Senators may 
want to submit other questions in writing.
    But I do want to thank you all for being here. It has been 
very helpful. The local preparedness, not just on the 
organizational level and the government level but on the 
individual level, on the citizen level, is very important to 
making sure that we are doing all that we can to respond and 
prepare for disasters.
    What I will do then is I will adjourn the hearing, but with 
the understanding that we will probably have a few questions in 
writing and we would love for you all to get those responses 
back in the next couple of weeks. So thank you for doing this.
    We are adjourned.
    [Whereupon, at 11:44 a.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


                 OPENING STATEMENT OF SENATOR VOINOVICH
    Mr. Chairman and Ranking Member Sununu, I commend you both for 
convening today's hearing regarding community preparedness. In 95 
percent of emergency situations, bystanders or victims themselves are 
the first to provide assistance. Given this fact, I think today's 
hearing is extremely important.
    I believe it is every person's civic responsibility to be prepared 
for natural and man-made disasters, and I appreciate our witnesses 
appearing to discuss our level of readiness. I especially want to thank 
Mr. Decker for testifying today. Mr. Decker and I have worked together 
on a number of emergency issues facing Ohio, including winter storms, 
floods, and tornadoes. I have always been impressed with his emergency 
management expertise and believe he will share some useful information 
and recommendations with the Subcommittee today.
    Again, Chairman Pryor, thank you for calling today's hearing on 
preparedness, an issue of critical importance to communities throughout 
the United States.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
